     Department of Homeland Security



            FEMA Public Assistance Grant
            Funds Awarded to Puerto Rico
              Highway and Transportation
           Authority – Tropical Storm Jeanne




DA-12-06                                       February 2012
                                                                             Office ofInspector General

                                                                             U.S. Department of Homeland Security
                                                                             Washington, DC 20528




                                                                             Homeland
                                                                             Security
                                                                       FEB - 3 2012
MEMORANDUM FOR:                  Lynn G. Canton
                                 ~:~al Ad . istrator, Region II
                                ~l Em e 9ffIanag~nt Agency
FROM:                                  D. Mich I      Bea~ L----(
                                       Acting Assistant Inspector General
                                       Office of Emergency Management Oversight

SUBJECT:                               FEMA Public Assistance Grant Funds Awarded to Puerto Rico
                                        Highway and Transportation Authority - Tropical Storm Jeanne
                                       FEMA Disaster Number 1552-DR-PR
                                       Audit Report Number DA-12-06

We audited public assistance fimds awarded to the Puerto Rico Highway and Transportation Authority
(Authority) (FIPS Code 000-UA8CE-00). Our audit objective was to determine whether the Authority
accounted for and expended Federal Emergency Management Agency (FEMA) grant fimds according to
federal regulations and FEMA guidelines.

As of March 21, 2011, the Authority had received a public assistance award of $2.5 million from the
Puerto Rico Office of Management and Budget (Commonwealth), a FEMA grantee, for damages
resulting from Tropical Storm Jeanne in September 2004. The award provided 75% FEMA funding for
the repair of roads and bridges. The award included two large projects. 1

Our audit focused on the $2.5 million awarded to the Authority (see Exhibit, Schedule of Projects
Audited). The audit covered the period from September 14,2004, to March 21,2011, during which the
Authority received $1.9 million of FEMA funds. At the time of our audit, the Authority had completed
all work under the projects.

We conducted this performance audit pursuant to the Inspector GeneralAct of1978, as amended, and
according to generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence obtained
provides a reasonable basis for our fmdings and conclusions based upon our audit objective. We



I   Federal regulations in effect at the time of the disaster set the large project threshold at $54,100.

                                                                   1
conducted this audit applying the statutes, regulations, and FEMA policies and guidelines in effect at the
time of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed Authority,
Commonwealth, and FEMA personnel; reviewed the Authority’s procurement policies and procedures;
reviewed applicable federal regulations and FEMA guidelines; and performed other procedures
considered necessary to accomplish our audit objective. We did not assess the adequacy of the
Authority’s internal controls applicable to its grant activities because it was not necessary to accomplish
our objective. However, we did gain an understanding of the Authority’s methods of accounting for
disaster-related costs and its policies and procedures for administering the activities provided for under
the FEMA award.


                                         RESULTS OF AUDIT

The Authority generally accounted for and expended FEMA funds according to federal regulations and
FEMA guidelines. However, we identified $59,847 of questionable costs consisting of $53,137 of non-
disaster charges and $6,710 of excessive contract charges that FEMA should disallow.

Finding A: Non-Disaster Charges

The Authority’s claim included $53,137 of charges for damages unrelated to the disaster. Federal
regulation 44 CFR 206.223(a)(1) states that an item of work must be required as a result of a major
declared disaster event to be eligible for FEMA financial assistance.

The Authority claimed $109,988 under Project 276 to construct a channel to control river flow while
performing permanent repairs to an embankment on state road PR 6685. We reviewed daily activity
reports and monthly progress reports prepared by the engineer in charge of administering and
supervising project activities. We identified $53,137 of charges for damages to the channel caused by
flooding events in March and April 2006, which were not related to Tropical Storm Jeanne. Therefore,
we question the $53,137 of non-disaster charges.

Finding B: Excessive Contract Charges

The Authority claimed excessive contract costs of $6,710 under Project 274. Using emergency
procurement procedures, the Authority awarded a contract for $127,294 to make road repairs at
kilometer 6.0 in the Municipality of Yabucoa on state road PR-902. The contractor billed $12,510 for
the replacement of 75.82 tons of bituminous pavement mix S-1(75) at $165 per ton. Upon reviewing
other road repair contracts awarded by the Authority under the disaster using competitive procedures,
we determined that the unit price for such material averaged $76.50 per ton, or $88.50 less than the
amount charged by the contractor.

According to 2 CFR 225, Cost Principles for State, Local and Indian Tribal Governments, Appendix A,
Section C.1.a, costs under federal awards must be both reasonable and necessary. The cost principles
require grant recipients to consider sound business practices, federal regulations and guidelines, and
market price for comparable good and services in determining reasonable costs. We question $6,710 of

                                                     2

the charges ($88.50 × 75.82 tons) because the unit price of $165 per ton charged by the contractor was
unreasonable compared with the average market price of the material.


                                       RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region II:

       Recommendation #1: Disallow $53,137 ($39,853 federal share) of ineligible project charges not
       related to the disaster (finding A).

       Recommendation #2: Disallow $6,710 ($5,033 federal share) of excessive contract charges that are
       ineligible for FEMA funding (finding B).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with Authority, Commonwealth, and FEMA officials during our audit.
We also provided a written summary of our findings and recommendations in advance to these officials
and discussed them at the exit conference held on September 30, 2011. Authority officials agreed with
our findings.

Within 90 days of the date of this memorandum, please provide our office with a written response that
includes your (1) agreement or disagreement, (2) corrective action plan, and (3) target completion date
for each recommendation. Also, please include responsible parties and any other supporting
documentation necessary to inform us about the current status of the recommendation. Until your
response is received and evaluated, the recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of our
report to appropriate congressional committees with oversight and appropriation responsibility over the
Department of Homeland Security. To promote transparency, this report will be posted to our website,
with the exception of sensitive information identified by your office. Significant contributors to this
report were David Kimble, Adrianne Bryant, and Vilmarie Serrano-Rosario.

Should you have questions concerning this report, please contact me at (202) 254-4100 or David Kimble
at (404) 832-6702.

cc:	      Administrator, FEMA
          Audit Liaison, FEMA Region II
          Audit Liaison, FEMA Caribbean Recovery Office
          Audit Liaison, FEMA HQ (Job Code: GA-11-034)
          Audit Liaison, DHS




                                                    3

                                                               EXHIBIT


                Schedule of Projects Audited

           September 14, 2004, to March 21, 2011

     Puerto Rico Highway and Transportation Authority

              FEMA Disaster No. 1552 DR-PR


Project      Amount       Amount         Amount
Number      Awarded       Claimed       Questioned   Finding
  274       $ 119,120     $ 127,294       $ 6,710       B
  276        2,352,013      2,352,013       53,137      A
 Total      $2,471,133    $2,479,307       $59,847




                            4

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
